HHS/OIG, Audit - "Review of Medicare Inpatient Acute-Care Bad Debts
at Ingalls Hospital for Fiscal Year 1999 - Ingalls Hospital, Harvey, Illinois,"
(A-05-02-00052)
Department
of Health and Human Services
"Review of Medicare Inpatient Acute-Care Bad Debts at Ingalls Hospital
for Fiscal Year 1999 - Ingalls Hospital, Harvey, Illinois," (A-05-02-00052)
October 17, 2002
Complete
Text of Report is available in PDF format (272 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if Medicare
inpatient acute-care bad debts claimed by Ingalls Hospital on its cost report
for the fiscal year ended September 30, 1999 met Medicare requirements.
Although our audit found that Ingalls generally claimed inpatient acute-care
bad debts in accordance with Medicare reimbursement requirements, we noted some
minor exceptions resulting in questioned bad debt claims of $6,668.  We
recommended that Ingalls coordinate with the Fiscal Intermediary to adjust their
fiscal year 1999 cost report by $6,668 for overstated inpatient acute-care bad
debts and reemphasize the need to assure that Medicare bad debts claimed meet
Medicare reimbursement requirements.  Ingalls concurred with our findings
and recommendations.